APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Court of Appeals of
Maryland
(April 23, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Corrected Order in the Court of
Appeals of Maryland
(October 30, 2020) . . . . . . . . . . . . App. 30
Appendix C Certification Pursuant to Maryland
Rule 8-304 in the Court of Special
Appeals of Maryland
(October 6, 2020) . . . . . . . . . . . . . App. 34
Appendix D Official Transcript of Proceeding
Excerpt in the Circuit Court for Anne
Arundel County, Maryland
(October 29, 2019) . . . . . . . . . . . . App. 41

App. 1

APPENDIX A
Circuit Court for Anne Arundel County
Case No.: C-02-CR-19-001378
Argued: February 1, 2021
IN THE COURT OF APPEALS
OF MARYLAND
[Filed: April 23, 2021]
Misc. No. 9
September Term, 2020
_______________________________________
BENJAMIN CALEB TROTT
)
)
v.
)
)
STATE OF MARYLAND
)
_______________________________________)
Barbera, C.J.
McDonald
Watts
Hotten
Getty
Booth
Biran,
JJ.
Opinion by Booth, J.
Filed: April 23, 2021

App. 2
It is not uncommon that the Fourth Amendment
puts into tension two fundamental pillars of good
government: the right of the people to be free from
unreasonable government intrusion and the
government’s interest in protecting the people from
dangerous criminal activity. For decades, Maryland has
recognized a compelling public interest in controlling
and preventing drunk driving.1 Although significant
efforts to combat drunk driving have reduced fatalities
in recent years, 167 people in Maryland died in
alcohol-impaired driving incidents in 2019, accounting
for about one-third of the total traffic deaths in the
State.2
In this case, we are asked to navigate the tension
between law enforcement’s ability to investigate an
anonymous 911 tip that reported drunk driving and the
parameters of the Fourth Amendment. In response to
an anonymous 911 call placed close to 11:30 p.m. on a
Friday night that provided the specific location and
license plate of a vehicle driven by a possibly
intoxicated driver, within minutes of the call, the
responding police officer located the vehicle in a
parking lot of a liquor store, and knocked on the
window of the running car to investigate. The driver,

1

See Little v. State, 300 Md. 485, 504 (1984) (“The magnitude of
the problem created by intoxicated motorists cannot be
exaggerated.”).
2

Nat’l Highway Traffic Safety Admin., U.S. Dep’t of Transp.,
Traffic Safety Facts Research Note: Overview of Motor Vehicle
Crashes in 2019, at 13 (2020), https://crashstats.nhtsa.dot.gov/
Api/Public/ViewPublication/813060 [https://perma.cc/AL5KHKTG].

App. 3
Benjamin Caleb Trott, rolled down his window, smelled
of alcohol, and admitted to having had multiple drinks.
Mr. Trott also stated that his driver’s license was
suspended and revoked. After Mr. Trott was unable to
successfully complete a field sobriety test, the police
arrested him.
Following the denial of his motion to suppress, Mr.
Trott entered a plea of not guilty on an agreed
statement of facts to one count of driving while
impaired. The Circuit Court for Anne Arundel County
found Mr. Trott guilty and sentenced him to a
three-year term of incarceration, with three years
suspended, and a three-year term of supervised
probation.
Mr. Trott noted a timely appeal. After the parties
submitted briefs, the Court of Special Appeals filed a
certification pursuant to Maryland Rule 8-304,
requesting that this Court determine whether the
circuit court erred in denying Mr. Trott’s motion to
suppress.3 We granted certiorari to consider the

3

The question presented in the Court of Special Appeals
certification was:
Did the circuit court err in finding that a police officer had
reasonable suspicion to engage in an encounter with
appellant based upon the police dispatcher’s information
conveyed to him over his police radio, following a 911 call,
stating “intoxicated driver at 5823 Deale Churchton Road,”
and indicating further facts limited to the color of the
vehicle, Maryland tag number, Maryland registration
number, and that the vehicle was in a parking lot?

App. 4
parameters of the Fourth Amendment in the context of
a 911 call reporting drunk driving. For the reasons
explained below, we hold that, under the totality of the
facts presented in this case, the police had reasonable
suspicion to conduct a brief investigatory detention of
Mr. Trott, and this stop did not violate the Fourth
Amendment. We affirm the circuit court’s denial of the
motion to suppress.
I.
Factual and Procedural Background
After entering a plea of not guilty, Mr. Trott filed a
motion to suppress, arguing that Corporal Michael
Cooper lacked a reasonable, articulable suspicion to
justify the stop because it was based solely on a
dispatcher’s account of an anonymous tip, and that the
totality of the circumstances as alleged did not support
the investigative stop. Corporal Cooper of the Anne
Arundel Police Department was the sole witness at the
suppression hearing. The relevant facts elicited at the
hearing are not in dispute.
A. The Suppression Hearing
At the suppression hearing, Corporal Cooper
testified to the following facts. Around 11:30 p.m. on
the night of Friday, December 4, 2015, Corporal Cooper
received a report from a dispatcher of an intoxicated
driver at a specific location in Anne Arundel County.
The tip provided the color of the vehicle and the license
In our order granting certification, pursuant to Maryland Rule
8-304(c)(2), we modified the question of law to state: “Did the
circuit court err in denying Appellant’s motion to suppress?”

App. 5
plate number. Corporal Cooper arrived at the address
within two to eight minutes. When he arrived at the
location, accompanied by another officer, he observed
a silver Honda CR-V parked in front of Captain Kidd’s
liquor store, with the same Maryland license plate
number that was provided to him by the dispatcher.
Mr. Trott was in the driver’s seat and his girlfriend was
seated in the front passenger seat. The car was parked,
the keys were in the ignition, and the engine was
running. Corporal Cooper pulled into the parking lot
and parked his cruiser approximately ten to fifteen feet
behind the vehicle, at which time he activated his
emergency lights, but not his siren. Both officers
approached the car, one to the passenger’s side and one
to the driver’s side.
Corporal Cooper knocked on the driver’s side
window and asked Mr. Trott to roll down his window.
Mr. Trott did not immediately do so because he
appeared to be unfamiliar with the window controls.
After Corporal Cooper asked Mr. Trott for his license
and registration, Mr. Trott admitted that his license
was suspended, and his driver’s license was revoked.
During the conversation, Corporal Cooper could smell
a “strong odor” of alcohol on Mr. Trott’s breath. Mr.
Trott acknowledged that he had consumed two beers
and a shot, explaining that he was more sober than his
girlfriend, who was also in the car. Corporal Cooper
asked Mr. Trott to step out of the vehicle. After an
unsuccessful field sobriety test, Mr. Trott was arrested.
Following Corporal Cooper’s testimony and
arguments of counsel, the circuit court orally delivered
its ruling denying Mr. Trott’s motion to suppress,

App. 6
stating “[w]ell, viewing what you gentlemen have
submitted in writing and your arguments along with
the testimony of Officer Cooper, I find that the
circumstances were sufficient to support the stop
conducted by Officer Cooper and therefore the [m]otion
is denied.”
B. Additional Proceedings
After the circuit court denied Mr. Trott’s motion to
suppress, he entered a plea of not guilty on an agreed
statement of facts to one count of driving while
impaired. The circuit court convicted Mr. Trott of
driving while impaired by alcohol, and sentenced him
to a three-year term of incarceration, with three years
suspended, and three years of supervised probation.
Mr. Trott timely appealed the circuit court’s
decision to the Court of Special Appeals. The sole issue
presented to the intermediate appellate court was
whether the circuit court erred in denying Mr. Trott’s
motion to suppress. After considering the issue on
brief, the Court of Special Appeals filed a certification
pursuant to Maryland Rule 8-304. In its certification,
the intermediate appellate court observed that this
case presents “an important question of public policy”
balancing the interests of individual privacy protected
by the Fourth Amendment and against the inherent
danger to the public arising from driving while
intoxicated, in the context of an anonymous 911 call
reporting such alleged behavior. We granted the
certification, pursuant to Maryland Rule 8-304(c)(3),
and issued a writ of certiorari that included the entire
action.

App. 7
II.
Standard of Review
Our review of a circuit court’s denial of a motion to
suppress evidence under the Fourth Amendment is
limited to the information contained in the record of
the suppression hearing. Pacheco v. State, 465 Md. 311,
319 (2019). We review the facts found by the circuit
court in the light most favorable to the prevailing
party, in this case, the State. Id. We accept the circuit
court’s findings of fact “unless they are clearly
erroneous, but we review de novo the court’s
application of the law to its findings of fact.” Id.
(citation and internal quotations omitted). When a
party raises a constitutional challenge to a search or
seizure, we undertake an “independent constitutional
evaluation by reviewing the relevant law and applying
it to the unique facts and circumstances of the case.”
Grant v. State, 449 Md. 1, 14–15 (2016) (quoting State
v. Wallace, 372 Md. 137, 144 (2002)).
III.
Discussion
The Fourth Amendment to the United States
Constitution4 protects “against unreasonable searches

4

The Fourth Amendment provides:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall

App. 8
and seizures[.]” U.S. Const. amend. IV “The exclusion
of evidence obtained in violation of these provisions is
an essential part of the Fourth Amendment
protections.” Swift v. State, 393 Md. 139, 149 (2006);
see also Mapp v. Ohio, 367 U.S. 643, 655–56 (1961). In
determining whether a search or seizure is
lawful,“[t]he touchstone of our analysis under the
Fourth Amendment is always the ‘reasonableness in all
the circumstances of the particular governmental
invasion of a citizen’s personal security.’” Pennsylvania
v. Mimms, 434 U.S. 106, 108–09 (1977) (quoting Terry
v. Ohio, 392 U.S. 1, 19 (1968)). Recognizing that the
constitutional gauge for purposes of Fourth
Amendment analysis is “reasonableness,” we have
explained that “‘[w]hat is reasonable depends upon all
of the circumstances surrounding the search or seizure
and the nature of the search or seizure itself.’” Lewis v.
State, 470 Md. 1, 18 (2020) (quoting United States v.
Montoya de Hernandez, 473 U.S. 531, 537 (1985)).
“Whether a particular warrantless action on the part of
the police is reasonable under the Fourth Amendment
depends on a balance between the public interest and
the individual’s right to personal security free from
arbitrary interference by law officers.” Pacheco, 465
Md. at 321 (internal quotations omitted).
In analyzing the reasonableness of warrantless
encounters between the police and members of the
public, we have generally compartmentalized these
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
U.S. Const. amend. IV.

App. 9
interactions into three categories based upon the level
of intrusiveness of the police-citizen contact: an arrest;
an investigatory stop; and a consensual encounter. See
Swift, 393 Md. at 149–51. An arrest—the first and
most intrusive category—“requires probable cause to
believe that a person has committed or is committing
a crime.” Id. (citations omitted). This case involves the
application of the intermediate tier, known as the Terry
stop,5 or investigatory stop, which is less intrusive than
a more formal custodial arrest, and correspondingly,
requires a less demanding level of suspicion than
probable cause.6 See United States v. Sokolow, 490 U.S.
1, 7 (1989). To satisfy the Fourth Amendment, a Terry
stop “must be supported by reasonable suspicion that
a person has committed or is about to commit a crime
and permits an officer to stop and briefly detain an
individual.” Swift, 393 Md. at 150 (citing Berkemer v.
McCarty, 468 U.S. 420, 439 (1984)); Ferris v. State, 355
5

The intermediate level of police-citizen encounter commonly
referred to as “Terry stop,” derives its name from the seminal “stop
and frisk” case of Terry v. Ohio, 392 U.S. 1 (1968).
6

“The least intrusive police-citizen contact, a consensual
encounter, involves no restraint of liberty and elicits an
individual’s voluntary cooperation with non-coercive police
contact.” Swift v. State, 393 Md. 139, 151 (2006). In its
supplemental brief filed with this Court, the State concedes that,
under the circumstances presented in this case—where the officers
parked the cruiser ten to fifteen feet behind Mr. Trott’s parked car
and activated the emergency lights—Mr. Trott was seized when
Corporal Cooper approached his car and asked him to roll down his
window. Given the State’s concession that Mr. Trott was “seized”
within the meaning of the Fourth Amendment, the encounter was
not consensual and is governed by the reasonable suspicion
standard applicable to a Terry stop.

App. 10
Md. 356, 374 n.5 (1999). Generally, an officer has
reasonable suspicion to conduct a stop when there is “‘a
particularized and objective basis for suspecting the
particular person stopped of criminal activity.’”
Navarette v. California, 572 U.S. 393, 396 (2014)
(quoting United States v. Cortez, 449 U.S. 411, 417–18
(1981)); see also Sizer v. State, 456 Md. 350, 364 (2017)
(explaining that “[r]easonable suspicion exists
somewhere between unparticularized suspicions and
probable cause”).
“There is no standardized litmus test that governs
the ‘reasonable suspicion’ standard,” and we have
recognized that “any effort to compose one would
undoubtedly be futile.” Cartnail v. State, 359 Md. 272,
286 (2000) (citing Ornelas v. United States, 517 U.S.
690, 695 (1996) (explaining that it would be impossible
to articulate, with precision, what “reasonable
suspicion” means)). The futility in attempting to create
such a standard arises from the “myriad factual
situations that arise.” Cortez, 449 U.S. at 417. Like
probable cause, the standard for “reasonable suspicion”
is intentionally fluid because it “is not readily, or even
usefully, reduced to a neat set of legal rules.” Sokolow,
490 U.S. at 7 (citation and internal quotations omitted).
Distilled to its essence, we consider the “totality of the
circumstances—the whole picture—” to determine
whether “the detaining officers . . . have a
particularized and objective basis for suspecting the
particular person stopped of criminal activity.” Cortez,
449 U.S. at 417–18. The reasonable suspicion standard
“is a common sense, nontechnical conception that
considers factual and practical aspects of daily life and
how reasonable and prudent people act.” Cartnail, 359

App. 11
Md. at 286 (citing Ornelas, 517 U.S. at 695–96). In
Sizer, we explained that “[t]he reasonable suspicion
standard does not allow a law enforcement official to
simply assert that innocent conduct was suspicious to
him or her. Rather, the officer must explain how the
observed conduct, when viewed in the context of all of
the other circumstances known to the officer, was
indicative of criminal activity.” 456 Md. at 365
(internal citations and quotations omitted) (cleaned
up). Although reasonable suspicion “requires some
minimal level of objective justification for making the
stop that amounts to something more than an ‘inchoate
and unparticularized suspicion or hunch, it does not
require proof of wrongdoing by a preponderance of the
evidence.” Sokolow, 490 U.S. at 7 (cleaned up).
Accordingly, we have stated that a stop may be upheld
based on “a series of acts which could appear naturally
innocent if viewed separately” but that “collectively
warrant further investigation[.]” Cartnail, 359 Md. at
290 (citation omitted); see also United States v. Arvizu,
534 U.S. 266, 277 (2002) (“A determination that
reasonable suspicion exists . . . need not rule out the
possibility of innocent conduct.”).
On the undisputed facts presented at the
suppression hearing, we must determine whether
Corporal Cooper had reasonable suspicion necessary to
effect a stop of Mr. Trott outside Captain Kidd’s liquor
store after receiving the information relayed by the 911
caller, under the totality of the circumstances known to
the officer at the time of the stop.
Mr. Trott argues that the officers did not have a
legal basis to stop and detain him and that the

App. 12
anonymous call cannot support a finding of reasonable
suspicion under the facts of this case. He contends that
the 911 caller simply referred to an “intoxicated
driver,” without: any reference as to timing; describing
any driving behavior; or providing any basis of personal
knowledge. What is missing from the call, he claims, is
sufficient indicia of reliability and the caller’s basis of
knowledge, given that reasonable suspicion requires
that a tip be reliable in its assertion of ongoing criminal
activity, and not simply its tendency to identify a
specific person. Mr. Trott asserts that under the
Supreme Court’s jurisprudence and in particular,
Navarette, 572 U.S. 393, the mere reference to an
“intoxicated driver” is a “conclusory allegation,” which
is insufficient to satisfy the reasonable suspicion
standard applicable to a lawful investigatory stop for
Fourth Amendment purposes. Mr. Trott contends that
the Supreme Court’s rationale in Florida v. J.L., 529
U.S. 266, 271 (2000) controls, because “[a]ll the police
had to go on in this case was a bare report of an
unknown, unaccountable informant who neither
explained how he knew about the [intoxicated driver]
nor supplied any basis for belief he had inside
information about the [driver].”
The State argues that Corporal Cooper had
reasonable suspicion to stop Mr. Trott because the tip,
as relayed by the dispatcher, included specific
information to identify the vehicle, as well as the
vehicle’s precise location, along with the allegation that
the driver was intoxicated. According to the State, the
Supreme Court’s reasoning in Navarette—combined
with the minimally intrusive nature of the stop of Mr.
Trott and the significant imminent danger to the public

App. 13
created by the alleged criminal activity—lead to the
conclusion that the stop satisfied the reasonableness
requirements of the Fourth Amendment.
Despite the opposing outcomes advanced by Mr.
Trott and the State, they agree on one point—that our
analysis requires an examination of the Supreme
Court’s jurisprudence concerning anonymous calls
alleging criminal behavior that form the basis for an
investigatory stop.
A. Supreme Court Jurisprudence---Anonymous
Tips Providing Reasonable Suspicion for
Investigatory Stop
We start with the premise that reasonable suspicion
need not be founded on information observed first-hand
by law enforcement and may be “based on information
from anonymous tips.” Navarette, 572 U.S. at 397.
Indeed, the Supreme Court has “firmly rejected the
argument ‘that reasonable cause for an investigative
stop can only be based on [an] officer’s personal
observation, rather than on information supplied by
another person.’” Id. (quoting Adams v. Williams, 407
U.S. 143, 147 (1972)) (cleaned up). In determining
whether an anonymous tip is sufficient to provide the
requisite reasonable suspicion necessary for an
investigatory stop, we consider both the “quantity and
quality[,]” or degree of reliability of information
disclosed in an anonymous tip, “giving the anonymous
tip the weight it deserved in light of its indicia of
reliability as established through independent police
work.” Alabama v. White, 496 U.S. 325, 330 (1990). “[I]f
a tip has a relatively low degree of reliability, more
information will be required to establish the requisite

App. 14
quantum of suspicion than would be required if the tip
were more reliable.” Id.
In White, the Supreme Court considered whether an
anonymous tip, corroborated by independent police
work, was sufficient to provide reasonable suspicion to
make an investigatory stop. 496 U.S. at 326–27. The
tipster told the police that a woman would be leaving
an apartment at a particular time, driving to a
particular motel in a brown Plymouth station wagon
with a broken taillight, and would be transporting
cocaine. Id. at 327. Based upon the information
provided by the tipster, the police officers stopped the
station wagon as it neared the motel and found cocaine
in the vehicle. Id. at 331. The Court held that the
officers’ corroboration of certain details made the
anonymous tip sufficiently reliable to create reasonable
suspicion of criminal activity and that the investigative
stop therefore did not violate the Fourth Amendment.
Id.
Although the Court observed that the anonymous
tip provided “virtually nothing from which one might
conclude that the caller is either honest or his
information is reliable[]” and gave “no indication of the
basis for the caller’s prediction regarding . . . criminal
activities[,]” the Court ultimately found the tip
sufficiently reliable for purposes of establishing
reasonable suspicion because “the anonymous tip had
been sufficiently corroborated to furnish reasonable
suspicion that respondent was engaged in criminal
activity[.]” Id. at 329, 331 (citation omitted) (cleaned
up). According to the Court, police were able to verify
the suspect’s sex, the vehicle described in the tip, the

App. 15
time of the suspect’s departure from the building, and
her apparent destination. Id. at 331. The Court found
the tipster’s ability to predict “future behavior” of
particular import, observing that “[b]ecause only a
small number of people are generally privy to an
individual’s itinerary, it is reasonable for police to
believe that a person with access to such information is
likely to also have access to reliable information about
that individual’s illegal activities.” Id. at 332.
In Florida v. J.L., by contrast, the Supreme Court
determined that no reasonable suspicion arose from an
anonymous call to a police department that a young
black male standing at a particular bus stop and
wearing a plaid shirt was carrying a gun. 529 U.S. at
268. At some point, two officers arrived at the scene,
observed three black males “just hanging out[,]” one of
whom, J.L., was wearing a plaid shirt. Id. One of the
officers approached J.L., frisked him, and recovered a
gun from his pocket. Id. The question presented to the
Court was whether “an anonymous tip that a person is
carrying a gun is, without more, sufficient to justify a
police officer’s stop and frisk of that person.” Id. The
Supreme Court held that the search was invalid under
the Fourth Amendment. Id.
The Supreme Court began its discussion by
observing that the police officers’ suspicion that J.L.
was carrying a gun arose “solely from a call made from
an unknown location by an unknown caller[]” and not
from any observations of their own. Id. at 270. Citing
Alabama v. White as an example, the J.L. Court
acknowledged that there are situations “in which an
anonymous tip, suitably corroborated, exhibits

App. 16
‘sufficient indicia of reliability to provide reasonable
suspicion to make the investigatory stop.’” Id. (quoting
White, 496 U.S. at 327). The Court contrasted the facts
in White from the facts before it, noting that the
anonymous call concerning J.L. “provided no predictive
information and therefore left the police without means
to test the informant’s knowledge or credibility.” Id. at
271. By failing to provide both predictive information
or an explanation concerning “how [the tipster] knew
about the gun[,]” there could be no “basis for believing
[the tipster] had inside information about J.L.” Id. And
although the Court observed the tip accurately
described the “subject’s readily observable location and
appearance” such details are only reliable in a “limited
sense[]” because they do “not show that the tipster has
knowledge of concealed criminal activity.” Id. at 272.
According to the Court, “[t]he reasonable suspicion here
at issue requires that a tip be reliable in its assertion
of illegality, not just in its tendency to identify a
determinate person.” Id. (citation omitted).
In rendering its decision, the Supreme Court
rejected a per se exception for anonymous tips
regarding firearms, recognizing the danger that guns
may pose, but concluding that such an exception would
encompass too many situations, such as any allegation
of drug dealing. Id. at 272–73. At the same time, the
Court declined to shut the door altogether on whether
there are “circumstances under which the danger
alleged in an anonymous tip might be so great as to
justify a search even without a showing of reliability.”
Id. at 273. By way of example, the Court noted “a
report of a person carrying a bomb” may not need the
same “indicia of reliability” demanded “for a report of

App. 17
a person carrying a firearm” before law enforcement
can conduct a Terry stop and frisk. Id. at 273–74.
In Navarette v. California, the Supreme Court
considered whether an officer had reasonable suspicion
to make an investigatory stop in the context of an
anonymous 911 call reporting a suspected drunk
driver. 572 U.S. 393. Applying a “totality of the
circumstances” approach, the Supreme Court held that
the tip from the anonymous 911 caller was sufficiently
reliable to support a Terry stop. Id. at 404. In that case,
the police department received an anonymous 911 call
claiming that a particular truck had run the caller off
the road. Id. at 395. The caller provided the license
plate number, make, and model of the truck, and
identified the road and the direction the truck was
traveling. Id. The officers responded and saw the
alleged truck on the road and followed it for about five
minutes without noticing any dangerous or erratic
driving behavior. Id. Nonetheless, the officers stopped
the truck. Id. During the stop, they smelled marijuana,
so they conducted a search that resulted in the
discovery of 30 pounds of marijuana. Id. The Supreme
Court found the stop to be supported by reasonable
suspicion, even though the officers had not been able to
corroborate any illegal activity (such as dangerous
driving) during their five-minute observation of the
truck. Id. at 404.
After discussing both the White and J.L. cases, the
Supreme Court determined that, even assuming the
911 call was anonymous, “the call bore adequate indicia
of reliability for the officer to credit the caller’s
account” and “[t]he officer was therefore justified in

App. 18
proceeding from the premise that the truck had, in fact,
caused the caller’s car to be dangerously diverted from
the highway.” Id. at 398–99. In concluding that the call
was reliable, the Court focused on three factors. First,
the Court commented on the fact that the caller had
eyewitness knowledge of the alleged criminal behavior.
Id. at 399. Specifically, the Court pointed out that the
caller claimed to have been run off the road, “which
necessarily implie[d] that the informant knows the
other car was driven dangerously.” Id. at 399. Second,
the Court pointed out the contemporaneous nature of
the call, observing that the “timeline of events suggests
that the caller reported the incident soon after she was
run off the road.” Id. The Court stated that this “sort of
contemporaneous report has long been treated as
especially reliable.” Id. The final factor weighing in
favor of the tip’s veracity was “the caller’s use of the
911 emergency system.” Id. at 400. The Court observed
that the 911 emergency system not only relays a
caller’s cell phone number and approximate
geographical location to 911 dispatchers, thereby
providing “some safeguards against . . . false reports[,]”
but may also record 911 calls, which provides victims
of false reports “an opportunity to identify the false
tipster’s voice and subject him to prosecution” under
applicable state laws. Id. at 400–01.
After determining that the anonymous tip was
sufficiently reliable, the Supreme Court proceeded to
the second part of the analysis under Terry—whether,
at the time of the stop, the officer had a reasonable
belief that the criminal activity was ongoing—
explaining that “[e]ven a reliable tip will justify an
investigative stop only if it creates reasonable suspicion

App. 19
that ‘criminal activity may be afoot.’” Id. at 401
(quoting Terry, 392 U.S. at 30). The Court explained
that it must “therefore determine whether the 911
caller’s report of being run off the roadway created
reasonable suspicion of an ongoing crime such as drunk
driving as opposed to an isolated episode of past
recklessness.” Id.
Focusing on the nature of the specific type of
criminal activity, the Supreme Court concluded that
the nature of the driver’s conduct—running another car
off the highway—bore “too great a resemblance to
paradigmatic manifestations of drunk driving to be
dismissed as an isolated example of recklessness.” Id.
at 403. The Court stated that “[w]e cannot say that the
officer acted unreasonably under these circumstances
in stopping a driver whose alleged conduct was a
significant indicator of drunk driving.” Id. The Court
reasoned that because the specific allegation of
dangerous driving created “reasonable suspicion of
drunk driving[,]” law enforcement was not required to
“personally observe suspicious driving[]” prior to
executing a stop, as “[o]nce reasonable suspicion of
drunk driving arises, ‘the reasonableness of the officer’s
decision to stop a suspect does not turn on the
availability of less intrusive investigatory techniques.’”
Id. at 403–04 (citing Sokolow, 490 U.S. at 11) (cleaned
up). The Court observed that this is particularly true in
the context of drunk driving, where “allowing a drunk
driver a second chance for dangerous conduct could
have disastrous consequences.” Id. at 404.

App. 20
B. Anonymous 911 Call and the Investigatory
Stop of Mr. Trott
We must determine whether, under the totality of
the circumstances, the stop here comported with the
reasonable suspicion requirement of the Fourth
Amendment. Our analysis requires that we consider
whether the anonymous tip provided sufficient indicia
of reliability, and whether the police officers had a
particularized and objective basis for suspecting
ongoing criminal activity at the time of the stop. Mr.
Trott argues that the anonymous tip does not meet the
reliability threshold described in Navarette because
there is: (1) no basis for either imputing “eyewitness
knowledge” to the tipster or concluding the anonymous
tip was reported at the time the tipster witnessed
unlawful activity; (2) no concrete allegation of criminal
activity set forth in the tip; (3) no predictive
information set forth in the tip; and (4) no evidence
that the system through which the tip was reported
decreased the likelihood of false tips. Even if this Court
were to find the tip reliable, Mr. Trott argues there is
no basis for finding reasonable suspicion, as the
allegation of intoxicated driving was conclusory, and
Corporal Cooper failed to observe anything indicative
of criminal activity. According to Mr. Trott, his
presence outside a liquor store at the time of the stop
“does not add in any way to the totality of
circumstances[.]”
Unsurprisingly, the State contends Corporal Cooper
had the reasonable suspicion necessary to effect a stop
of Mr. Trott. According to the State, a tip reporting
drunk driving is different than tips reporting other

App. 21
crimes because drunk driving presents an “imminent
threat to public safety.” The State asserts that, while
anonymous tipsters may generally need to provide
more particularized descriptions of unlawful activity,
a specific allegation of drunk driving without a detailed
description of the reason an anonymous tipster believes
the driver is intoxicated should be sufficient to justify
a seizure given the “exigent circumstances” presented
by drunk driving. In light of the foregoing, the State
contends Corporal Cooper had reasonable suspicion to
stop Mr. Trott outside the liquor store because the
tipster provided a specific allegation of intoxicated
driving that was sufficiently descriptive to ensure
police would only stop the subject of the tip, and
Corporal Cooper was able to timely identify the
reported vehicle outside a liquor store. The lawfulness
of the seizure, the State asserts, finds further support
in precedent establishing the diminished expectation of
privacy that a motorist enjoys in his or her vehicle, as
well as the minimal intrusion associated with stopping
an already parked vehicle.7
We conclude that the anonymous tip in this case
provided sufficient indicia of reliability and that, under
the totality of the circumstances, the police officers had
a particularized and objective basis for suspecting
ongoing criminal activity.
7

The State has argued that, even if we were to find that Corporal
Cooper’s stop lacked reasonable suspicion, the stop was justified
under the community caretaking exception. Given our holding
that, under the totality of the circumstances presented in this case,
the officers had reasonable suspicion to effectuate the stop under
the Fourth Amendment, we shall not address the community
caretaking exception.

App. 22
We start our Fourth Amendment analysis with an
examination of whether the 911 call bore sufficient
indicia of reliability to form the basis for the stop. To be
sure, unlike the caller in Navarette, the caller here did
not allege that he or she was run off the road.
Admittedly, this is a close case and on its own, such a
“bare bones,” conclusory allegation would not suffice to
support a stop. However, as noted above, our
determination of whether an officer has the reasonable
suspicion necessary to justify an investigatory stop is
a highly fact-intensive inquiry, and we consider the
totality of the circumstances known to the officer at the
time of the stop. Our consideration of all of the factors
described below lead us to conclude that the officer had
reasonable suspicion.
First, we note that, although conclusory, an
allegation that a person is intoxicated is “the kind of
shorthand statement of fact that lay witnesses have
always been permitted to testify to in court.” State v.
Crawford, 67 P.3d 115, 119 (Kan. 2003) (citation and
internal quotations omitted); see also State v. Amelio,
962 A.2d 498, 502 (N.J. 2008) (explaining that “the
signs of drunkenness are matters of common
knowledge and experience”). But the tip did not simply
allege drunk driving. The tip was contemporaneous to
the reported behavior and provided detailed and
specific information. The 911 dispatcher provided the
officer with the color of the vehicle, the Maryland
license plate number and the registration number.
There is no question that the dispatch described the
motor vehicle with sufficient particularity such that
Corporal Cooper could be certain that the vehicle he
stopped was the same one identified by the caller. We

App. 23
note that other courts have found detailed descriptions
of vehicles, including full license plate numbers and
locations, to be helpful corroborating details. See, e.g.,
Commonwealth v. Depiero, 25 N.E.3d 896, 900 (Mass.
App. Ct. 2015). Additionally, Corporal Cooper arrived
at the location provided by the dispatcher within two to
eight minutes after receiving the call. The fact that the
car was located exactly where it was reported to be
within minutes of the call lends credence to the notion
that the caller reported an ongoing crime as it
happened. This “sort of contemporaneous report
has long been treated as especially reliable” as
“‘substantial contemporaneity of event and statement
negate the likelihood of deliberate or conscious
misrepresentation.’” Navarette, 572 U.S. at 399–400
(quoting Fed. R. Evid. 803(1) advisory committee
notes); see also Md. Rule 5-803(b)(1) (providing that “[a]
statement describing or explaining an event or
condition made while the declarant was perceiving the
event or condition, or immediately thereafter[]” is “not
excluded by the hearsay rule[]”); Booth v. State, 306
Md. 313, 324 (1986) (observing that “the ‘present sense
impression’ exception to the hearsay rule rests upon a
firm foundation of trustworthiness[]”).
The caller’s use of the 911 emergency system to
report intoxicated driving also bears favorably on the
tip’s veracity. As the Supreme Court observed in
Navarette, “911 calls can be recorded” and the Federal
Communications Commission (“FCC”) not only requires
cellular carriers to relay caller phone numbers to 911
dispatchers but also requires carriers “to identify [a]
caller’s geographic location with increasing specificity.”
Id. at 400–01 (citations omitted). These features that

App. 24
are designed to better identify 911 callers, coupled with
the State criminalizing knowingly false reports of
criminal activity, see Maryland Code, Criminal Law
§ 9-503,8 would make “a reasonable officer . . . conclude
that a false tipster would think twice before using” 911
to report a phony tip. Id. at 401.
Having determined that the anonymous call was
reliable, we also conclude that “the observed conduct,
when viewed in the context of all the other
circumstances known to the officer, was indicative of
criminal activity.” Sizer, 456 Md. at 365 (citations
omitted). Within minutes of receiving the dispatcher’s
call relaying an anonymous tip alleging that an
intoxicated driver was operating a particular vehicle at
a specific location, law enforcement located the exact
vehicle at the precise location identified in the tip.
When law enforcement made contact with the vehicle,
it was nearly 11:30 p.m., the vehicle was parked
outside a liquor store, the keys were in the ignition,
and the car was running. The 911 call, taken with the
officer’s observation of the running vehicle parked at a
liquor store at 11:30 at night, creates a reasonably
objective belief that the driver of the vehicle may be
8

Maryland Code, Criminal Law § 9-503 provides:
(a) A person may not make, or cause to be made, a
statement or report that the person knows to be false as a
whole or in material part to an official or unit of the State
or of a county, municipal corporation, or other political
subdivision of the State that a crime has been committed
or that a condition imminently dangerous to public safety
or health exists, with the intent that the official or unit
investigate, consider, or take action in connection with
that statement or report.

App. 25
consuming alcohol. In other words, the nature of the
business and the lateness of the hour were certainly
among the totality of the circumstances available to
Corporal Cooper when he undertook his investigation.
While it is true that these details, when viewed in
isolation, may suggest innocent activity, “[a]
determination that reasonable suspicion exists . . . need
not rule out the possibility of innocent conduct.” Arvizu,
534 U.S. at 277. Here, the anonymous tip, coupled with
the circumstances surrounding the stop, was sufficient
to “warrant further investigation[.]” Cartnail, 359 Md.
at 290 (citation omitted). Considering the totality of all
of the circumstances available to Corporal Cooper, his
act of approaching the stopped and idling vehicle and
knocking on the window to investigate, was reasonable.
In reaching our conclusion that the investigatory
stop in this case was reasonable, other factors inform
our decision. Specifically, in determining the validity of
the stop, it is not unreasonable to consider both the
level of the intrusiveness occasioned by the stop, as
well as the risk of harm resulting from a failure to
detain the driver.9 In considering the level of

9

Prior to the Supreme Court’s decision in Navarette, Chief Justice
Roberts noted in his dissent to the denial of certiorari in Virginia
v. Harris, 558 U.S. 978 (2009), that the “majority of courts
examining the question [had] upheld investigative stops of
allegedly drunk or erratic drivers, even when the police did not
personally witness any traffic violations before conducting the
stops.” See Harris, 558 U.S. 978, n.2 (citing United States v. Wheat,
278 F.3d 722 (8th Cir. 2001); People v. Wells, 136 P.3d 810 (Cal.
2006); State v. Prendergast, 83 P.3d 714 (Haw. 2004); State v.
Walshire, 634 N.W.2d 625 (Iowa 2001); State v. Crawford, 67 P.3d
115 (Kan. 2003); Bloomingdale v. State, 842 A.2d 1212 (Del. 2004);

App. 26
intrusiveness, the nature of the seizure involved a
stopped vehicle and a minimal intrusion. The
automobile was parked and running, and the encounter
was brief—it only lasted long enough for Corporal
Cooper to knock on the window and ask Mr. Trott a few
questions. As the Supreme Court has recognized, “the
brevity of the invasion of the individual’s Fourth
Amendment interests is an important factor in
determining whether the seizure is so minimally
intrusive as to be justifiable on reasonable suspicion.”
United States v. Sharpe, 470 U.S. 675, 685 (1985)
(citation omitted). If Corporal Cooper had not smelled

State v. Golotta, 837 A.2d 359 (N.J. 2003); State v. Scholl, 684
N.W.2d 85 (S.D. 2004); State v. Boyea, 765 A.2d 862 (Vt. 2000);
State v. Rutzinksi, 623 N.W.2d 516 (Wis. 2001)). This view was not
shared by all jurisdictions. See Wheat, 278 F.3d at 729–30
(reviewing cases upholding stops, then noting that some courts
“have reached a different conclusion[]”). When considering an
anonymous tip alleging drunk driving, as part of its reasonable
suspicion analysis, other jurisdictions that upheld the stops
considered not just the reliability of the call, but also the potential
risk to public safety and the minimal intrusion necessitated by the
investigatory stop. See, e.g., Boyea, 765 A.2d at 868 (explaining
that “[i]n determining the validity of a stop, it is not unreasonable
to consider both the risk of harm resulting from a failure to detain
the driver, and the level of intrusiveness occasioned by a
detention[]”); Golotta, 837 A.2d at 368 (observing that from a
constitutional standpoint, the lesser privacy interest in an
automobile and the nature of the intrusion are relevant in
assessing the reasonableness of the police conduct). Although these
cases were decided prior to Navarette, we do not read Navarette as
eliminating a court’s ability to consider the nature of the crime
(and attendant imminent danger to the public), as well as the level
of intrusion (such as knocking on the window of a stopped but
running vehicle parked in a liquor store parking lot), when
undertaking a reasonable suspicion analysis.

App. 27
alcohol on Mr. Trott, the stop would have ended, and
Mr. Trott would have been free to go on his way. Not
only was the stop brief, it was minimally intrusive. In
contrast to the search and seizure of one’s person in
J.L., the intrusion in this case involved an officer
approaching a stopped motor vehicle and knocking on
a window. The Supreme Court has long recognized that
people have a diminished expectation of privacy in
their vehicles. See United States v. Martinez-Fuerte,
428 U.S. 543, 561 (1976) (noting that “one’s expectation
of privacy in an automobile and of freedom in its
operation are significantly different from the
traditional expectation of privacy and freedom in one’s
residence[]”). This is because a vehicle “has little
capacity for escaping public scrutiny. It travels public
thoroughfares where both its occupants and its
contents are in plain view.” United States v. Knotts, 460
U.S. 276, 281 (1983) (citations omitted); see also People
v. Wells, 136 P.3d 810, 816 (Cal. 2006) (upholding the
stop of an alleged drunk driver, in part, after
concluding that “the level of intrusion of personal
privacy and inconvenience involved in a brief vehicle
stop is considerably less than the ‘embarrassing police
search’ on a public street condemned by J.L.” and
further observing that “in light of the pervasive
regulation of vehicles capable of traveling on the public
highways, individuals generally have a reduced
expectation of privacy while driving a vehicle on public
thoroughfares”) (internal citations omitted); State v.
Crawford, 275 Kan. 492, 497 (Kan. 2003) (upholding an
investigatory stop based upon a reckless driving
complaint, in part, on the observation that “brief
investigatory stops of motor vehicles based upon
reasonable suspicion are substantially less intrusive

App. 28
than other forms of seizures under the Fourth
Amendment and are perceived as relatively minimal
intrusions upon the Fourth Amendment freedoms[]”).
Indeed, in Lewis, we recently distinguished between
the “heightened expectation of privacy enjoyed in one’s
person[]” versus the “diminished expectation of privacy
one enjoys in his or her vehicle.” 470 Md. at 26.
Additionally, in determining that the investigatory
stop was reasonable under the circumstances, we also
consider the gravity of the risk of public harm. Unlike
crimes involving possessory offenses, such as carrying
an illegal gun or possessing drugs, the crime of drunk
driving poses a significant and potentially imminent
public danger. As Chief Justice Roberts observed, “[t]he
imminence of the danger posed by drunk drivers
exceeds that at issue in other types of cases.” Virginia
v. Harris, 558 U.S. 978 (2009) (dissenting from denial
of certiorari). While the police can observe the subject
of other types of tips “and step in before actual harm
occurs[,]” a “wait-and-see approach” with drunk driving
“may prove fatal.” Id. Indeed, unlike other criminal
activity, drunk driving “is always dangerous, as it is
occurring.” Id. It is not passive activity—it is a
dangerous criminal activity that, when undertaken,
often has an immediate deadly impact on innocent
citizens who unknowingly step into its path. Balancing
the public’s interest in safety against the minimal
intrusion occasioned by the brief investigatory stop
here, and considering the totality of the facts presented
to Officer Cooper in this case, we conclude that the
scales of justice tilt in favor of the stop.

App. 29
IV.
Conclusion
We hold that the investigatory stop in this case
satisfied the Fourth Amendment. Considering the
totality of the circumstances, the officers had
reasonable suspicion to suspect that Mr. Trott was
engaged in drunk driving. The anonymous 911 call had
sufficient indicia of reliability—the tipster alleging the
drunk driving provided the make, model, and license
plate of the vehicle, as well as its location. The police
arrived within minutes of receiving the call and
observed the running vehicle parked at a liquor store
around 11:30 p.m. on a Friday night. We determine
that the stop was reasonable given the nature of the
criminal activity—drunk driving, with its attendant
imminent danger to the public—as well as the minimal
and non-intrusive nature of the stop. Under the totality
of the circumstances, the officer’s stop was reasonable.
CERTIFIED QUESTION ANSWERED.
JUDGMENT OF THE CIRCUIT
COURT FOR ANNE ARUNDEL
COUNTY AFFIRMED. COSTS TO BE
PAID BY APPELLANT.

App. 30

APPENDIX B
IN THE COURT OF APPEALS
OF MARYLAND
COA-MISC-0009-2020
CSA-REG-1853-2019
(No. C-02-CR-19-001378,
Circuit Court for Anne Arundel County)
[Filed: October 30, 2020]
_______________________________________
BENJAMIN CALEB TROTT
)
)
v.
)
)
STATE OF MARYLAND
)
_______________________________________)
CORRECTED
ORDER
Upon a preliminary examination of the Certification
pursuant to Maryland Rule 8-304, filed in the
above-captioned case, it is this 26th day of October,
2020,
ORDERED, by the Court of Appeals of Maryland,
that the Certification, be, and it is hereby, granted,
pursuant to Maryland Rule 8-304(c)(3), to include the
entire action; the question of law modified, as follows,
pursuant to Maryland Rule 8-304(c)(2):

App. 31
Did the circuit court err in denying Appellant’s
motion to suppress?
and the writ of certiorari to the Court of Special
Appeals shall issue and the case shall be heard in the
February session of Court; and it is further
ORDERED, that the record extract shall be e-filed
on or before January 4, 2021.
/s/ Mary Ellen Barbera
Chief Judge

App. 32
IN THE COURT OF APPEALS
OF MARYLAND
COA-MISC-0009-2020
CSA-REG-1853-2019
(No. C-02-CR-19-001378,
Circuit Court for Anne Arundel County)
_______________________________________
BENJAMIN CALEB TROTT
)
)
v.
)
)
STATE OF MARYLAND
)
_______________________________________)
WRIT OF CERTIORARI
STATE OF MARYLAND, to wit:
TO THE HONORABLE JUDGES OF THE
COURT OF SPECIAL APPEALS
MARYLAND:

OF

WHEREAS, BENJAMIN CALEB TROTT v. STATE
OF MARYLAND, No. 1853, September Term, 2019 is
pending before your Court and the Court of Appeals is
willing that the record and proceedings therein be
certified to it.
YOU ARE HEREBY COMMANDED TO HAVE
THE RECORD TRANSMITTED TO THE COURT
OF APPEALS OF MARYLAND ON OR BEFORE
November 9, 2020, together with this writ, for the
said Court to proceed thereon as justice may require.

App. 33
WITNESS the Chief Judge of the Court of Appeals
of Maryland this 26th day of October, 2020.
/s/ Suzanne C. Johnson
Clerk
Court of Appeals of Maryland

App. 34

APPENDIX C
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 1853,
September Term, 2019
Circuit Court for Anne Arundel County,
C-02-CR-19-001378
[Filed: October 6, 2020]
_______________________________________
BENJAMIN CALEB TROTT
)
)
Appellant
)
)
v.
)
)
STATE OF MARYLAND,
)
)
Appellee
)
_______________________________________)
Certification Pursuant to Maryland Rule 8-304
Description of Action
Appellant, Benjamin Caleb Trott, was convicted in
the Circuit Court for Anne Arundel County of driving
while impaired. On appeal, he presents a single
question for review: Whether the circuit court erred in
denying his motion to suppress. Rephrased, the
certified question reads as follows:

App. 35
Did the circuit court err in finding that a police
officer had reasonable suspicion to engage in an
encounter with appellant based upon the police
dispatcher’s information conveyed to him over
his police radio, following a 911 call, stating
“intoxicated driver at 5823 Deale Churchton
Road,” and indicating further facts limited to the
color of vehicle, Maryland tag number, Maryland
registration number, and that the vehicle was in
a parking lot?
Reasons for Certification
This case presents an important question of public
policy balancing the interests of individual privacy and
protection of the public from drunk drivers. As the
State notes in its brief, this case concerns the
parameters of the Fourth Amendment and presents the
question of what a police officer should do when
presented with the barebones information of
“intoxicated driver” accompanied with a tag number,
registration number, and a particular location and no
further information concerning the 911 caller’s name or
basis of knowledge, or any predictive behavior of the
driver. The State argues that “there is substantial
government interest in effecting a stop as quickly as
possible . . . balanced against an individual’s right to
remain free from unreasonable government intrusion.”
Each party relies on Supreme Court law to support
its position. The State relies on Navarette v. California,
572 U.S. 393 (2014) (holding that reasonable suspicion
of an ongoing crime existed when the anonymous caller
was an eyewitness, claiming she had been run off the
road). Trott relies on Florida v. J.L., 529 U.S. 266

App. 36
(2000) (holding that the tip lacked the necessary indicia
of reliability because it did not explain the tipster’s
basis of knowledge about the gun and was without
“predictive information” that would allow the police “to
test the informant’s knowledge or credibility” by
corroborating details) and Alabama v. White, 496 U.S.
325, 332 (1990) (holding that the officers’ corroboration
of movements predicted by the tipster demonstrated a
special familiarity with respondent’s affairs and made
the anonymous tip sufficiently reliable to create
reasonable suspicion of criminal activity).
Many of our sister jurisdictions have considered the
question of an “anonymous” 911 call in the context of
driving while intoxicated. Several state courts have
held that 911 calls, in light of today’s technology, are
not anonymous because they are readily traceable. See,
e.g., State v. Melanson, 665 A.2d 338 (N.H. 1995); State
v. Boyea, 765 A.2d 862 (Vt. 2000). Many of the states
have held that given the high threat to public safety
posed by drunk drivers, the “minimal intrusion” upon
an individual’s privacy is warranted and that an officer
may perform an investigative stop based upon an
unidentified 911 caller who describes the driving
activity. But see Navarette, 572 U.S. at 409 (Scalia, J.,
dissenting) (impugning that 911 traceability would be
an indicium of reliability because, among other
reasons, an average anonymous tipster to 911 likely is
not aware of any traceability). This case is one step
removed from the extant jurisprudence, i.e., there is no
explicit description contained in the tip about the
nature of the driving.

App. 37
This case presents the opportunity for the Court of
Appeals to set forth the parameters of the Fourth
Amendment in the above-described circumstances.
Because this case presents the single constitutional
issue, the issue is of state-wide importance, and it is
likely that whatever the outcome in the Court of
Special Appeals, the aggrieved party will petition the
Court of Appeals for writ of certiorari.
Relevant Factual Background
On December 4, 2015, at approximately 11:26 p.m.,
Corporal Cooper was on duty when he was dispatched
to 5823 Deale Churchton Road. He testified that the
dispatch was for an intoxicated driver at that location,
and the dispatcher stated the color of the vehicle along
with a Maryland tag number and a Maryland
registration. When he arrived at that location,
accompanied by another officer, he observed a silver
Honda CR-V parked in front of Captain Kidd’s liquor
store, with the same Maryland tag number that was
provided to him by the dispatcher. Appellant was in the
driver’s seat of the car and his girlfriend was seated in
the front passenger seat. The car was parked, the keys
were in the ignition, and the engine was running. The
officer parked ten to fifteen feet behind appellant’s
automobile, and activated his lights but no siren. Both
officers approached the car, one to the passenger’s side
and one to the driver’s side. Corporal Cooper
approached the vehicle, knocked on the window, asked
him to roll down the window and to present his license
and registration. Corporal Cooper detected a strong
odor of an alcoholic beverage on appellant’s breath.
Appellant stated that his driver’s license was

App. 38
suspended and revoked. Following an unsuccessful
field sobriety test, the police arrested appellant.
Appellant was tried in the Circuit Court for Anne
Arundel County and convicted of driving while
impaired. He appealed to the Court of Special Appeals.
Arguments of the Parties on Appeal
Appellant argues that the officers did not have a
legal basis to stop and detain him and that the 911 call
from an anonymous person cannot support a finding of
reasonable suspicion. He argues that the caller to 911
referred to an “intoxicated driver,” without any
reference as to timing or description of any driving
behavior or any basis of knowledge of the caller. He
maintains that this sparse reference provides nothing
more than pure speculation that any criminal activity
was ongoing. What is missing in the call, he claims, is
sufficient indicia of reliability and basis of knowledge
of the caller, given that reasonable suspicion requires
that a tip be reliable in its assertion of ongoing
illegality, not just in its tendency to identify a
determinate person. The mere reference to “intoxicated
driver” is “a conclusory allegation,” which is insufficient
under the Supreme Court jurisprudence and
particularly Navarette v. California, 572 U.S. 393, 403
(2014). He argues that the Supreme Court findings in
Florida v. J.L., 529 U.S. 266, 271, applies here: “[a]ll
the police had to go on in this case was the bare report
of an unknown, unaccountable informant who neither
explained how he knew about the [‘intoxicated driver’]
nor supplied any basis for believing he had inside
information about [appellant].”

App. 39
The State argues that the motions court did not err
in denying the motion to suppress for three reasons:
(1) the police encounter with appellant was consensual
and not a detention; (2) the police had reasonable
suspicion to detain appellant for investigation; and
(3) the police acted in their community caretaking
function. First, the State argues that Corporal Cooper’s
approach of appellant’s vehicle and appellant was a
mere accosting, not a Terry stop, because Corporal
Cooper turned on his emergency lights behind
appellant’s vehicle without intent to show authority but
rather to make sure that his vehicle would be visible.
The State contends that appellant rolled down his
window voluntarily in response to Corporal Cooper’s
request, and that the encounter was consensual until
some point after appellant opened the car window,
when Cooper gathered more evidence, leading to the
field sobriety test. Second, the State argues that
Corporal Cooper had reasonable suspicion to stop
appellant because the tip, as relayed by the dispatcher,
included specific information to identify the car along
with the allegation that the driver was intoxicated. The
State contends that this is sufficient to meet the
reasonable suspicion standard for a driving while
intoxicated or impaired case. The State argues that this
case is distinguishable from J.L. because identification
of a specific car makes it less likely that the wrong
person would be stopped than would a description of a
person on the street. Furthermore, the State argues
that “anonymity does not undermine [a] call’s
reliability.” Third, the State argues that the community
caretaking function provided an independent rationale
for the stop.

App. 40
Conclusion
For the foregoing reasons, and pursuant to
Maryland Rule 8-304(a), these issues are certified to
the Court of Appeals on this 6th day of October, 2020.

(JUDGE’S SIGNATURE APPEARS
ON THE ORIGINAL OF THIS
DOCUMENT)

Stuart R. Berger, Judge, Panel Chair
For the Panel:
Melanie Shaw-Geter, Judge
Irma S. Raker, Senior Judge, Specially Assigned
[SEAL]

App. 41

APPENDIX D
IN THE CIRCUIT COURT FOR
ANNE ARUNDEL COUNTY, MARYLAND
CRIMINAL DOCKET
CASE NO. C-02-CR-19-001378
[Dated: October 29, 2019]
_______________________________________
STATE OF MARYLAND,
)
)
vs.
)
)
BENJAMIN CALEB TROTT,
)
)
Defendant
)
_______________________________________)
OFFICIAL TRANSCRIPT OF PROCEEDING
* * * *
[pp. 24]
COURT’S FINDINGS
THE COURT: All right. Well, viewing what you
gentlemen have submitted in writing and your
arguments along with the testimony of Officer Cooper,
I find that the circumstances were sufficient to support
the stop conducted by Officer Cooper and therefore the
Motion is denied.
* * * *

